STATE OF WISCONSIN
DEPARTMENT OF JUSTICE

⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯⎯
17 W. Main Street
P.O. Box 7857
Madison, WI 53707-7857
www.doj.state.wi.us

Josh Kaul
Attorney General

Gabe Johnson-Karp
Assistant Attorney General
johnsonkarpg@doj.state.wi.us
608/267-8904
FAX 608/294-2907

September 29, 2021

Mr. Scott Harris
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

John K. MacIver Institute for Public Policy, Inc., et al.
v. Tony Evers
No. 21-0388
Pending Petition for Writ of Certiorari

Dear Mr. Harris:
Pursuant to Rule 30.4, Respondent Tony Evers, Governor of the State of
Wisconsin, respectfully requests a 60-day extension of time in which to file his brief
in opposition to the above-referenced petition. The brief is currently due October 12,
2021. Granting this extension would make the brief due December 13, 2021 (the
sixtieth day, December 11, is a Saturday).
I will be the principal attorney responsible for drafting the brief in opposition.
In addition to my ongoing case management obligations in numerous other cases, I
am also assigned to several other matters with deadlines that have kept me from
being able to work on the brief in opposition, while others will prevent me from
turning to this matter much before the requested extended due date. These include
trial and appellate briefing in State of Wisconsin ex rel. Joshua L. Kaul v. Prehn,
Case No. 21-CV-1994 (Dane Cty. Cir. Ct.), and Case No. 2021AP1673 (Wis. Sup. Ct.);
preparing and presenting oral argument in Jones v. Van Lanen, No. 20-1383, in the
United States Court of Appeals for the Seventh Circuit (argued September 15);
preparing and presenting oral argument in Brown v. Kemp, No. 21-1042, in the
United States Court of Appeals for the Seventh Circuit (argued September 27);

Mr. Scott Harris
September 29, 2021
Page 2
preparing and presenting oral argument in Friends of the Black River Forest v.
Wisconsin Department of Natural Resources, Case No. 2019AP0299, before the
Wisconsin Supreme Court (to be argued October 1); drafting and filing a reply in
support of summary judgment in Wisconsin Manufacturers and Commerce v.
Wisconsin Department of Natural Resources, Case No. 21-CV-0342 (Waukesha Cty.
Cir. Ct.); drafting and filing the respondents’ brief in Henderson v. Foster,
Case No. 2020AP0729 (Wis. Ct. App.) (currently due on second extension
November 1, 2021); drafting and filing the respondent’s brief in Kohler Co. v.
Wisconsin Department of Natural Resources, Case No. 2021AP1187 (Wis. Ct. App.)
(currently due October 22, 2021); drafting and filing the respondent’s brief in
Container Life Cycle Management v. Wisconsin Department of Natural Resources,
Case No. 2019AP1007 (Wis. Sup. Ct.) (currently due November 3, 2021); ongoing
discovery in Wisconsin Cottage Foods Association v. Wisconsin Department of
Agriculture, Trade and Consumer Protection, Case No. 21-CV-0013 (Lafayette Cty.
Cir. Ct.); ongoing discovery in Siebers v. Barca, Case No. 20-CV-1109 (W.D. Wis.); and
ongoing discovery and trial preparation in One Wisconsin Institute v. Thomsen,
Case No. 15-CV-0324 (W.D. Wis.).
In light of these obligations, Respondent requests an extension of time in which
to file his brief in opposition to ensure that the responsible attorneys have adequate
time to provide the Court with a thorough and responsive brief.
I have contacted counsel of record for Petitioners, Daniel R. Suhr, who consents
to the proposed extension of briefing.
I have, electronically and via first-class mail, served a copy of this letter on
Petitioners’ counsel of record, and hereby certify that all parties required to be served
have been served.
Sincerely,

Gabe Johnson-Karp
Assistant Attorney General
GJK:ajw
cc:

Daniel R. Suhr/Jeffrey M. Schwab

